HHS/OIG-Audit--"Review of Medicare Bill and Claim Processing: Opportunities for Long Term Improvement, (A-14-91-02532)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Bill and Claim Processing: Opportunities for Long
Term Improvement," (A-14-91-02532)
August 27, 1992
Complete
Text of Report is available in PDF format (2.34 mb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out alternatives that the Health Care Financing Administration
(HCFA) could pursue to improve Medicare bill and claim processing over the long
term. These alternatives--promoting electric billing, consolidating Medicare
operations, and implementing an integrated bill and claim processing system--could
enhance the economy, efficiency, effectiveness, and control over the processing
of Medicare bills and claims. A primary component is the potential for significant
savings in achieving paperless processing of bills and claims. We believe that
achieving this goal could save up to about $111 million per year by Fiscal Year
2000.